National Aeronautics and
Space Administration

Office of Inspector General
Washington, DC 20546-0001

                                           January 5, 2009

TO:                 Project Manager, External Tank Project Office

FROM:               Assistant Inspector General for Auditing

SUBJECT:            Final Memorandum on the Review of the Space Shuttle Liquid Hydrogen
                    Fuel Tank Sensors
                    (Report No. IG-09-009; Assignment No. S-08-011-00)


Since March 2006, Marshall Space Flight Center’s (MSFC) Engineering Department has
been performing assurance testing on the cryogenic liquid level sensors used in the Space
Shuttle Program’s liquid hydrogen (LH2) fuel tank. The MSFC Engineering Department
screens the sensors after the supplier delivers them to the prime contractor and after the
contractor completes normal acceptance testing on the sensors. The MSFC Engineering
Department found, as a result of their screening, that a number of LH2 sensors did not
conform to the required design specifications, even though the sensors had passed the
contractor’s acceptance testing.

The overall objective of this review was to determine whether the Space Shuttle Program
appropriately accounted for, used, or disposed of nonconforming LH2 sensors. We
focused our review on actions taken by the External Tank Project Office (Project Office)
after it identified nonconforming LH2 sensors. In addition, we reviewed the results of the
LH2 sensor screening and ranking performed by the MSFC Engineering Department’s
Electrical, Electronic, and Electromechanical Parts Analysis Team, using the NanoFocus
Lab, 1 and the LH2 sensor inventory records maintained by the contractor. (See
Enclosure 1 for details on the review’s scope and methodology.)

Executive Summary
We found that the Project Office initiated appropriate actions to identify and resolve LH2
sensor nonconformance issues by reviewing manufacturing and testing processes. As a
result, the Project Office recommended that modifications be made to the supplier’s
manufacturing process and to the contractor’s acceptance testing processes. In addition,
we found that because of the Project Office’s review, the contractor implemented a
detailed inventory control measure that segregated the sensors into two inventories—
Flight Ready inventory and 74L4-2 Parts inventory.


1
    The NanoFocus Lab is a modular, 3-dimension, profilometer system for non-contact surface
    characterization. It uses nondestructive X-ray technology to inspect the sensors to ensure the quality of
    construction.
                                                                                          2



The 74L4-2 Parts inventory contains sensors not yet screened by the MSFC Engineering
Department, sensors determined to be low ranking, damaged, questionable, and certain
other sensors. To mitigate the risks inherent in using nonconforming sensors, the
contractor labeled all the pre-process improvement LH2 sensors as nonconforming parts
to ensure that questionable sensors were not used inadvertently in a mission critical
position within the LH2 fuel tank. In addition, all LH2 sensors the contractor receives
from the supplier are not considered flight ready until the MSFC Engineering Department
uses the NanoFocus Lab to screen them. After the sensors pass the screening, the
contractor assigns a new part number, which indicates they are flight ready. However,
the contractor has not screened all the LH2 sensors and has continued to maintain low
ranking, damaged, and questionable sensors in the 74L4-2 Parts inventory.

Although the Project Office and the contractor took appropriate actions to resolve
quality- and inventory-control issues with nonconforming LH2 sensors, the 74L4-2 Parts
inventory still contains sensors that have not been screened using the NanoFocus Lab,
thus their usability is unknown, and also contains sensors that the Project Office does not
intend to ever use. Maintaining parts in inventory that are not suitable or intended for use
introduces unnecessary risk. In our November 4, 2008, draft of this memorandum, we
recommended that the Project Office determine the usability of all remaining LH2
sensors labeled as nonconforming parts and dispose of the sensors not intended for use.

In commenting on the draft of this memorandum (see Enclosure 2), the Program
Manager, Space Shuttle Program, generally concurred with our recommendations and
will transfer the nonconforming, pre-process improvement LH2 sensors, which are not
intended for use, to MSFC to be held in bonded storage. In addition, post-process
improvement sensors held in the 74L4-2 Parts inventory will be evaluated to determine
their final disposition. Management’s comments on the draft of this memorandum are
responsive; therefore, we consider the recommendations resolved and will close them
upon completion and verification of management’s corrective action.
Background
The external fuel tank used on the Space Shuttle is comprised of two separate internal
tanks. The upper tank contains liquid oxygen and the lower tank contains LH2. The two
tanks contain a total of 20 similar cryogenic liquid level sensors—8 liquid oxygen
sensors in the upper tank and 12 LH2 sensors in the lower tank. Of the 12 LH2 sensors in
the lower tank, 7 sensors are used in the forward fueling positions to indicate when the
tank is full, 1 is a 5 percent fueling sensor, and 4 are engine cutoff (ECO) sensors used to
ensure the safe shut down of the main engine if the tank runs out of LH2. The following
figure illustrates the external fuel tank and associated sensors.
                                                                                                                      3


                             Figure. Space Shuttle and External Fuel Tank


                                                                                 Overfill          Cryogenic Liquid
                                                                                 100 Plus          Level Sensors
                                            External
                                            Fuel Tank                            100% (2)
                                                                                  100 Minus
                                                                                     98% (2)

                                                                                 Liquid Oxygen
                                                                                 Fuel Tank


                                                                                         5%
                                                               External Fuel
                                                               Tank Cut-away      Overfill
                                                                                  100 Plus            Cryogenic Liquid
                                                                                  100% (2)            Level Sensors
                                                                                   100 Minus
                                                                                      98% (2)

                                                                                 Liquid Hydrogen
                                                                                 Fuel Tank




                                                                                    5%




                                                                               Four LH2 ECO Sensors




Source: NASA Fact Sheet, “Engine Cutoff Sensor System,” February 2008.

All of the sensors use two terminal posts that complete an electrical connection; a change
in resistance is detected when covered by cryogenic liquid. Each terminal post has a
terminal washer (on the bottom), a Belleville washer (on the top), and each terminal post
is swaged 2 to secure the Belleville washer to the post. According to MSFC engineering
personnel, the swaging of the terminal posts is a critical process because if the swage is
not properly securing the Belleville washer to the assembly, the washer may become
loose and may cause unpredictable sensor performance. The failure of two LH2 ECO
sensors could cause the loss of life or the failure of a mission.

ECO Sensor Anomalies and Utilization
In July 2005, because an LH2 ECO sensor showed abnormal readings during the fueling
of Space Transportation System (STS)-114, which resulted in a 2-week launch delay, the
Project Office assembled a team to identify the anomalies that occurred. According to
the Project Office, the team created a fault tree and determined that the LH2 sensors

2
    Swaging is a process used to reduce or increase the diameter of tubes and/or rods by placing the tube or
    rod inside a die that applies compressive force by hammering radially.
                                                                                                          4



themselves were the likely cause of the abnormal readings. The team performed a
process review to assess the manufacturing and acceptance testing process for the LH2
sensors and found that improvements could be made in the manufacturing process and
acceptance testing process for the LH2 sensors.

The MSFC Engineering Department used the NanoFocus Lab to screen the LH2 sensors
and found that many of the LH2 sensors contained washers that did not meet required
specifications and other workmanship issues. Subsequently, the MFSC Engineering
Department used the NanoFocus Lab to identify and rank the LH2 sensors better suited
for the ECO position. The sensor supplier and contractor incorporated the results of these
screenings by incrementally improving manufacturing and acceptance testing processes. 3

In October 2006, the supplier began delivering sensors that incorporated process
improvements. Consequently, MSFC engineering personnel stopped ranking the sensors
in December 2006, though the sensors continue to be screened. However, because of the
time between external tank assembly and shuttle launch, post-process improvement
sensors were not immediately available for flight. For Space Shuttle flights STS-121
through STS-117 (July 2006 through June 2007), the external tanks contained ranked and
screened pre-process improvement LH2 sensors in the four LH2 ECO positions and
unscreened pre-process improvement sensors in the eight fueling sensor positions.
According to the Project Office, pre-process improvement LH2 sensors were used
because the process improvement review was either not completed or the supplier had not
delivered any of the post-process improvement LH2 sensors. In addition, the Project
Office determined that there was minimal mission risk associated with using unscreened
pre-process improvement LH2 sensors for the eight fueling sensor positions. In August
2007, STS-118 was launched with the first screened post-process ECO sensors. In May
2008, STS-124 launched with screened post-process improvement ECO sensors and
screened pre-process improvement sensors in the fueling positions. 4 The first Space
Shuttle flight with all post-process improvement LH2 sensors is projected to be STS-119,
scheduled for launch in February 2009. The following table shows the chronology of
LH2 sensors and their utilization.




3
    The supplier began delivering post-process improvement sensors in October 2006. Process improvement
    refinement continued until the contractor established new standards for the sensors on August 23, 2007.
    Some of these improvements included the development of swage height requirements and measuring
    standards, updated soldering consistency for the bottom washer and the terminal post, additional record
    keeping and modernization of the equipment being used to perform the acceptance testing, and Defense
    Contract Management Agency personnel providing on-site monitoring during the manufacturing of the
    sensors.
4
    The one 5 percent fueling sensor for the external tank for STS-124 was an unscreened pre-process
    improvement LH2 sensor.
                                                                                                        5



                         Table. Chronology of LH2 Sensors and Utilization
                                                                                         Fueling
         Date                           Event                       ECO Sensors          Sensors
                        STS-114 experiences abnormal
           July 2005    ECO sensor readings, which
                        resulted in a 2-week launch delay
                        MSFC Engineering Department
        March 2006      begins screening and ranking
                        sensors
                                                                    Screened,            Unscreened,
           July 2006    STS-121 launch                              pre-process          pre-process
                                                                    improvement          improvement
                        Contractor implements inventory
        August 2006     controls to segregate flight ready
                        and nonconforming sensors
                                                                    Screened,            Unscreened,
    September 2006      STS-115 launch                              pre-process          pre-process
                                                                    improvement          improvement
                        Supplier begins delivery of sensors
       October 2006     incorporating process
                        improvements

    December 2006       MSFC discontinues ranking
                        sensors
    December 2006       STS-116 launch                              Screened,            Unscreened,
                                                                    pre-process          pre-process
          June 2007     STS-117 launch                              improvement          improvement

        August 2007     Contractor established new
                        standards for sensors
        August 2007     STS-118 launch
       October 2007     STS-120 launch                              Screened,            Unscreened,
                                                                    post-process         pre-process
      February 2008     STS-122 launch                              improvement          improvement
        March 2008      STS-123 launch
                                                                    Screened,            Screened,
          May 2008      STS-124 launch                              post-process         pre-process
                                                                    improvement          improvementa

    November 2008                                                   Screened,            Screened,
                        STS-126 launch                              post-process         pre-process
       (target date)
                                                                    improvement          improvement

      February 2009                                                 Screened,            Screened,
        (target date)   STS-119 launch                              post-process         post-process
                                                                    improvement          improvement
a
    The one 5-percent fueling sensor for the external tank for STS-124 was an unscreened pre-process
    improvement LH2 sensor.
                                                                                                             6



Assessment and Disposal of LH2 Sensors Inventory
Because of MSFC’s process improvement review, the contractor began controlling all
LH2 sensors inventory by separating the sensors into Flight Ready inventory and 74L4-2
Parts inventory. All the pre-process improvement LH2 sensors were labeled
“nonconforming” and assigned to the 74L4-2 Parts inventory, to ensure that these sensors
were not used in the LH2 ECO positions, and LH2 sensors received from the supplier
were directly assigned to the 74L4-2 Parts inventory until the NanoFocus Lab could
screen them. The contractor’s policy was to send all LH2 sensors to the NanoFocus Lab
to be screened before assigning the sensors a new part number that indicates they are
flight ready.

According to the contractor’s records, as of April 30, 2008, the contractor had a total of
114 LH2 sensors—8 LH2 sensors in the Flight Ready inventory and 106 LH2 sensors in
the 74L4-2 Parts inventory. The 74L4-2 Parts inventory included

       •   12 screened pre-process improvement LH2 sensors, which had low ranking and
           were therefore labeled as nonconforming;

       •   65 unscreened pre-process improvement LH2 sensors;

       •   9 screened post-process improvement LH2 sensors assessed as damaged or
           questionable;

       •   8 screened post-process improvement LH2 sensors in the process of being
           returned to the supplier to be cleaned and repackaged; 5 and

       •   12 post-process improvement LH2 sensors waiting to be screened by the
           NanoFocus Lab.

In addition to the 8 LH2 sensors in the Flight Ready inventory and the 106 sensors in the
74L4-2 Parts inventory identified above, the contractor, as of September 16, 2008, had
received 36 additional sensors from the supplier and expects to receive approximately
60 more. The contractor intends to use the 8 LH2 sensors in the Flight Ready inventory
and these additional 96 sensors, which include 24 spare sensors, in completing the final
10 Space Shuttle missions. 6

The Project Office does not plan to use the 9 post-process improvement LH2 sensors that
were damaged or questionable nor any of the 77 pre-process improvement sensors--i.e.,
the 12 screened pre-process improvement sensors ranked low by the NanoFocus Lab


5
    These sensors were labeled as nonconforming due to substandard packaging and will be reevaluated after
    the supplier cleans, repackages, and returns them to the contractor.
6
    The Shuttle LH2 sensor is reportedly the same sensor that will be used by the Ares V rocket currently
    under development, assuring sensor availability in the event that Shuttle flights are added beyond the
    planned 2010 retirement and the current LH2 sensor contract terminated.
                                                                                             7



process and the 65 unscreened pre-process improvement LH2 sensors. Although the
Project Office does not plan to use any of the 65 unscreened pre-process improvement
LH2 sensors, the contractor plans to maintain these sensors for future unanticipated
mission requirements and, according to the Project Office, if any of the 65 unscreened
pre-process improvement LH2 sensors are needed for use, they would be screened by the
NanoFocus Lab and only used in the less critical fueling positions.

We recognize that the Project Office should generally maintain available resources for
unanticipated mission requirements or other contingencies; therefore, the usability of the
65 unscreened pre-process improvement LH2 sensors needs to be determined.
Unanticipated mission requirements can often be schedule–sensitive, and screening the
LH2 sensors can be a time-consuming process due to competing contractor priorities.
Maintaining parts in inventory that are not suitable or intended for use introduces
unnecessary risk. Screening the 65 unscreened pre-process improvement LH2 sensors
and disposing of sensors that are not suitable or intended for use will provide
management with better information to make timely and informed choices concerning
these sensors.

Recommendations, Management’s Response, and Evaluation of
 Management’s Response
Recommendation 1. We recommended that the Project Manager, External Tank Project
Office, determine the usability of the 65 unscreened pre-process improvement LH2
sensors by coordinating with the MSFC Engineering Directorate to have them screened
by the NanoFocus Lab.

   Management’s Response. The Program Manager, Space Shuttle Program, partially
   concurred, stating that inspecting the 65 sensors at this time is not a desirable option
   and the sensors will only be screened if absolutely necessary. Instead, the External
   Tank Project Office intends to replace the sensor inventory with new process-
   improved sensors. Once the sensor inventory is sufficiently restocked to complete the
   external tanks currently on contract, the nonconforming sensors will be marked as
   Non Production Units and released to the Engineering Directorate for testing
   purposes only. The projected completion date is June 4, 2009.

   Evaluation of Management’s Response. Management’s planned action is generally
   responsive. Although the External Tank Project Office does not plan to screen the
   65 sensors unless absolutely necessary, the intent of our recommendation, which was
   to reduce the risk of maintaining parts in inventory that are not suitable or intended
   for use, is satisfied by management’s proposed action to release the 65 sensors to the
   Engineering Directorate for testing purposes only and, in response to our second
   recommendation, hold them in bonded storage. The recommendation is resolved and
   will be closed upon completion and verification of management’s corrective action.
                                                                                       8



Recommendation 2. We recommended that the Project Manager, External Tank Project
Office, dispose of any of the 65 pre-process improvement sensors that are found to be
questionable by the NanoFocus Lab screening, the 9 screened post-process improvement
LH2 sensors that were damaged or questionable, and the 12 screened pre-process
improvement LH2 sensors in the 74L4-2 Parts inventory that are labeled as
nonconforming and not intended for use.

   Management’s Response. The Program Manager, Space Shuttle Program,
   concurred and will transfer the 65 non-screened pre-process improvement sensors and
   the 12 screened pre-process improvement LH2 sensors to MSFC to be held in bonded
   storage. The 9 screened post-process improvement LH2 sensors that were damaged
   or questionable will be evaluated by the contractor to determine their final
   disposition. In addition, due to the commonality in design, the External Tank Project
   Office will implement the same plan for the liquid oxygen level sensors. The
   projected completion date is June 4, 2009.

   Evaluation of Management’s Response. Management’s planned action is
   responsive. The recommendation is resolved and will be closed upon completion and
   verification of management’s corrective action.

We appreciate the courtesies extended the audit staff during the review. If you have any
questions or need additional information, please contact Mr. Raymond Tolomeo, Mission
Programs and Projects Director, Office of Audits, at 202-358-7227.


   signed
Evelyn R. Klemstine

2 Enclosures

cc:
Associate Administrator for Space Operations
Program Manager, Space Shuttle Program
Director, MSFC Engineering Directorate
                              Scope and Methodology
We performed this review from March 2008 through December 2008 in accordance with
generally accepted government auditing standards. Those standards require that we plan
and perform the review to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our review objectives. We believe that
the evidence obtained provides a reasonable basis for our findings and conclusions based
on our review objectives.

We performed fieldwork at Marshall Space Flight Center and Michoud Assembly
Facility. We held meetings with and obtained records from the External Tank Project
Office, MSFC Engineering Directorate, and the External Tank Contractor.

To determine whether the nonconforming LH2 sensors were appropriately accounted for
and disposed, we

   •   reviewed the actions taken by the External Tank Project Office after
       nonconforming LH2 sensors were identified;
   •   reviewed the results of the LH2 sensor screenings performed by the MSFC
       Engineering Department, Electrical, Electronic, and Electromechanical Parts
       Analysis Team, utilizing the NanoFocus Lab;
   •   reviewed LH2 sensor inventory records maintained by the contractor;
   •   reconciled the inventory records with the data obtained from MSFC Engineering
       Department;
   •   identified the process and the criteria used for selecting LH2 engine cutoff (ECO)
       sensors for flight; and
   •   determined the disposition of the LH2 sensors that the MSFC Engineering
       Department identified as nonconforming to design specifications (to include
       whether any may have been used for flight).

Computer-Processed Data. We did not fully assess the controls for the
computer-processed data gathered from the contractor’s inventory and build systems;
however, we did compare the data gathered from contractor’s inventory and build
systems with records gathered from the NanoFocus Lab, nonconforming parts records,
and build records. These comparisons did often result in adjustments to the contractor’s
inventory and build system data.

Prior Coverage. During the last 5 years, no reports have been issued concerning LH2
Sensors.




                                                                              Enclosure 1
                                                                              Page 1 of 1
Management’s Comments




                        Enclosure 2
                        Page 1 of 3
              Revised




              Revised




Enclosure 2
Page 2 of 3
Enclosure 2
Page 3 of 3
